No. ______
In the

Supreme Court of the United States
__________________

WAYNE A. JONES, ED.D.,
Petitioner,
v.
VIRGINIA STATE UNIVERSITY;
MAKOLA M. ABDULLAH, PH.D.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether a non-tenured, but tenure-eligible,
professor at a public university has a minimal property
interest in a fair tenure review process under the
Fourteenth Amendment to the United States
Constitution, as has been recognized by the Sixth
Circuit in Purisch v. Tennessee Tech. Univ., 76 F.3d
1414, 1423 (6 th Cir. 1996).

ii
PARTIES TO THE PROCEEDINGS
Petitioner is Wayne A. Jones, Ed.D. (“Dr. Jones”).
Respondents are Virginia State University (“VSU”) and
is Makola M. Abdullah, Ph.D (“Dr. Abdullah”).
STATEMENT OF RELATED PROCEEDINGS
• Jones v. Virginia State University, et al., 20-1522
(4th Cir.) (opinion issued and judgment entered
on February 4, 2021).
• Jones v. Virginia State University, et al.;
3:19cv467 (E.D. Va.) (order granting motion to
dismiss on April 6, 2020).
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
Questions Presented . . . . . . . . . . . . . . . . . . . . . . . . . i
Parties To The Proceedings . . . . . . . . . . . . . . . . . . . . ii
Statement Of Related Proceedings . . . . . . . . . . . . . . ii
Table Of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . v
Petition For A Writ Of Certiorari . . . . . . . . . . . . . . . 1
Opinions Below. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional Provisions Involved . . . . . . . . . . . . . . 1
Statement Of The Case . . . . . . . . . . . . . . . . . . . . . . . 2
A. Statement Of Facts Relevant To The Issues. . . 3
B. The Underlying Litigation . . . . . . . . . . . . . . 10
Reasons For Granting The Writ . . . . . . . . . . . . . . . 13
I. This Case Presents An Important Question Of
Federal Constitutional Law On Which There Is
A Conflict Between Circuit Courts. . . . . . . . . . . 13
A. Purisch v. Tennessee Technological Univ. . . 13
B. Conflicting Fourth Circuit Jurisprudence. . . . 16
II. This Case Is An Excellent Vehicle To Resolve
The Question Presented . . . . . . . . . . . . . . . . . . . 16
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

iv
Appendix
Appendix A Opinion in the United States Court of
Appeals for the Fourth Circuit
(February 4, 2021) . . . . . . . . . . . . App. 1
Appendix B Opinion in the United States District
Court for the Eastern District of
Virginia Richmond Division
(April 6, 2020) . . . . . . . . . . . . . . . . App. 3
Appendix C Final Order in the United States
District Court for the Eastern District
of Virginia Richmond Division
(April 6, 2020) . . . . . . . . . . . . . . . App. 16

v
TABLE OF AUTHORITIES
CASES
Davis v. Rao,
583 F. App’x 113 (4th Cir. Sept. 5, 2014) . . . 11, 16
Kilcoyne v. Morgan,
664 F.2d 940 (4th Cir. 1981). . . . . . . . . . . . . . . . 16
Perry v. Sindermann,
408 U.S. 593 (1972). . . . . . . . . . . . . . . . . . . . 13, 16
Purisch v. Tennessee Technological Univ.,
76 F.3d 1414 (6th Cir. 1996). . . . . 1, 13, 14, 15, 16
Ragozzine v. Youngstown State Univ.,
2 F. Supp.3d 1051 (N.D. Ohio 2014) . . . . . . . . . 14
Saha v. Ohio State Univ.,
2007 WL 9760443 (S.D. Ohio Feb. 1, 2007) . . . 14
Siu v. Johnson,
748 F.2d 238 (4th Cir. 1984). . . . . . . . . . . . . 11, 16
State ex. Rel. McLendon v. Morton,
249 S.E.2d 919 (W.Va. 1978) . . . . . . . . . . . . . . . 14
Weeks v. Kentucky State Univ.,
468 Fed. Appx. 515 (6th Cir. 2012) . . . . . . . . . . 14
Wysocki v. UNLV,
2008 WL 11452341 (D. Nev. Sept. 25, 2008) . . . 14
CONSTITUTION AND STATUTES
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . passim

vi
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RULE
Fed.R.Civ.P. 12. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Wayne A. Jones Ed.D respectfully
petitions this Court for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Fourth Circuit in this case.
OPINIONS BELOW
The Fourth Circuit’s decision is unpublished but is
reproduced App at 1-2. The District Court’s final order
granting Respondents’ motion to dismiss under
Fed.R.Civ.P. 12 is unreported and is reproduced at
App. at 16-17. And the District Court’s opinion
supporting its dismissal order is unreported and is
reproduced at App. at 3-15.
JURISDICTION
The Fourth Circuit entered its opinion and
judgment order on February 4, 2021. This Petition is
timely filed within timely filed within 1501 days of this
denial, and this Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
The Fourteenth Amendment to the United States
Constitution states, in relevant part,

1

This time period is the extended period set by this Court due to
COVID-19.

2
No state shall . . . deprive any person of life,
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
U.S. Constitution, Amendment XIV.
STATEMENT OF THE CASE
This case involves Dr. Jones’ Section 19832 claim for
wrongful denial of tenure. Unlike similar such cases,
this case does not involve the thorny and often
subjective questions of academic judgment. Instead, it
is purely about process – namely, the failure of Dr.
Abdullah to constitutionally process Dr. Jones’
application for tenure. We submit that Dr. Abdullah,
the President of VSU and an individual defendant, was
required under Section 1983 to provide Dr. Jones with
a fair tenure and impartial review process. But he did
not. To the contrary, he said Dr. Jones’ application for
tenure was untimely, even though at exactly the
same time, VSU had twice indicated that Dr. Jones
was eligible to apply for tenure under its tenure
process. The following summary sets forth the facts
related to these events, together with the facts related
to his lawsuit and the District Court’s decision to grant
Respondents’ motion to dismiss.

2

“Section 1983" refers to 42 U.S.C. § 1983.

3
A. Statement Of Facts Relevant To The Issues.
At all relevant times from 2004 through September
1, 2018, Dr. Jones was a full-time employee of VSU.
JA17.3
At no point during his entire period of employment
was Dr. Jones ever an at-will employee at the
University. Id. at JA17-18. Instead, Dr. Jones at all
times worked pursuant to written contracts with
defined periods of employment. Id. at 18.
Dr. Jones began his VSU employment in 2004 as an
Assistant Professor in the Department of Political
Science and Public Administration. Id. He had an
office in Colson Hall. Id.
At that particular time, Dr. Jones was employed
pursuant to a “restricted appointment” contract which
stated in part: “Notwithstanding any representations
to the contrary, this appointment will not be extended
or renewed.” Id. Even so, VSU renewed Dr. Jones’
“restricted application” employment twice, once in 2005
and again in 2006. Id.
In 2007, Dr. Jones became employed in a tenure
track position at VSU. Id. As before, he worked an
Assistant Professor in the Department of Political
Science and Public Administration. Id.
In 2010, Dr. Jones applied for tenure. Id. He did so,
based on his belief that his pre-VSU employment in
higher education satisfied the “years of service”
requirement for tenure. Id. His application was
3

“JA” refers to the Joint Appendix filed in the Fourth Circuit.

4
rejected, however, as premature. Id. According to the
P&T Committee4, Dr. Jones’ pre-VSU employment did
not count for purposes of qualifying him to apply for
tenure. Id.
In 2010, at the request of Weldon Hill, Ph.D. (“Dr.
Hill”), the Provost of VSU, Dr. Jones became employed
at VSU as the Coordinator of Individualized Studies. Id.
Unlike his prior employment, Dr. Jones’ position was
under the auspices of the Office of Continuing Education
and Individualized Studies. Id. Dr. Jones, in turn,
moved his office out of Colson Hall to 4th Avenue. Id. at
19. In this position, Dr. Jones’ primary job was to
oversee VSU’s Bachelor of Individualized Studies (“BIS”)
program. Id.
Dr. Jones remained the Coordinator of Individualized
Studies for two years, from 2010 to 2012. Id. Then, for
the 2012-2013 academic year, Dr. Hill “place[d]” Dr.
Jones in a full-time tenure track position with “3 years
counted toward Promotion/Tenure.” Id.
The meaning of this designation, however, was
unclear. Id. Did it mean, for example, that Dr. Jones
was considered to be in his fourth year of teaching as of
the 2013-2014 academic year? Id. Or did it mean that
Dr. Jones had three years counted to tenure, plus the
years he had already worked at VSU (2007, 2008; 20082009), which meant that Dr. Jones was in his sixth year
of teaching at VSU as of 2013-2014? (which means he
would have been de facto ineligible for tenure the minute

4

“P&T Committee” refers to VSU’s Promotion & Tenure
Committee.

5
he started teaching that year). Id. Or, more realistically
(and as VSU itself initially believed), did it mean that
Dr. Jones’ completion of the 2012-2013 year would start
his third year of credit, which means that his 2013-2014
year would be his third year of teaching at VSU? Id.
In any event, from 2012 through 2016, Dr. Jones
worked continuously at VSU and at no point from 2013
through early 2016 did VSU ever tell Dr. Jones that he
was eligible to apply for tenure. Id.
This silence is significant, because VSU has an
obligation under its own rules and policies to notify
those members of its faculty who are eligible for tenure
at the time they are so eligible. Id.
This notice, in turn, lets faculty members make a
knowledgeable and informed choice about whether they
want to seek tenure. Id.
Relevant here, the VSU document titled “Timetable
for Promotion/Tenure Review Process 2016-2017
Academic Year” states the following:
“Office of the Provost reviews the Certification
of Tenure Track/Tenure Eligibility Status
Form and releases to Academic Deans a list of
faculty eligible to apply for tenure. Academic
Deans send written notification to each
eligible faculty member and provide a copy to
the faculty member’s chair.”
(emphasis added). Id. at 19-20.
Also according to this document (which is identical to
the “Timetable for Promotion and Tenure” section of the

6
VSU Faculty Handbook), this review is supposed to
occur between April 1 and May 1 of the applicable
calendar year. Id. at 20.
On information and belief, the guidelines set forth in
this particular timetable document are identical to those
that were set forth and utilized in both the 2013-2014
and 2014-2015 academic years. Id.
Pursuant to the above timetable, during Spring
Break 2016, Dr. Andrew Kanu, the Dean of the College
of Humanities and Social Sciences (the VSU college in
which Dr. Jones worked), came looking for two
professors in his college: a Dr. Brown and Dr. Jones. Id.
Although he did not locate either of the professors in
person, Dr. Kanu told their secretary to tell them to
apply for promotion and tenure. Id.
Upon information and belief, Dr. Kanu took these
actions because both Dr. Jones and Dr. Brown were
listed on the “Certification of Tenure Track/Tenure
Eligibility Status Form” that he had just received as
faculty who were eligible to apply for tenure. Id.
Also upon information and belief, Dr. Jones had
never before been listed on any prior “Certification of
Tenure Track/Tenure Eligibility Status Form”
documents. Id.
In other words, Dr. Jones’ inclusion on the 2016
document was the first time VSU identified him as
eligible for tenure and, as well, the first time it ever
notified him of such eligibility. Id.
The following week, Dr. Jones met with his Chair,
Gary Baker, to discuss the message from the Dean and

7
to determine whether it was time to apply. Baker said
to follow the Dean’s instructions. Id. at 21.
Dr. Jones did so and prepared his tenure dossier over
the next few months. Id. He submitted it in September
2016. Id. According to VSU’s timeline in its “Timetable
for Promotion and Tenure” in its Faculty Handbook, this
application was due on September 1, 2016, a deadline
with which Dr. Jones complied. Id.
At this stage, according to the “Timetable for
Promotion and Tenure” section of the Faculty Handbook,
the Department Chair is supposed to “confirm[] the
candidate’s eligibility and consult[] with the candidate
regarding the completeness of the application.” Id. Upon
information and belief, Dr. Jones’s Department Chair
complied with this directive and did indeed confirm his
eligibility for tenure. Id.
Next, after reviewing his tenure dossier, Dr. Jones’
Department Committee recommended him for tenure on
December 2, 2016. His Department Chair, Mr. Baker,
likewise did so on December 2, 2016. Id.
Finally, on January 4, 2017. Dr. Jones’ Dean, Dean
Kanu, recommended that Dr. Jones be granted tenure.
Id.
In short, by early January 2017, everything was in
place for a substantive consideration of Dr. Jones’ tenure
application, which had been unanimously endorsed by
those who supervised him and those who worked with
him. Id. Moreover, at least twice during the review
process, VSU, through the Office of the Provost and
through Dr. Jones’ Chair, had deemed him eligible to
apply for tenure. Id. At no point prior to March 7,

8
2017 did anyone at VSU ever tell Dr. Jones that he
was not eligible to apply for tenure because of
submitting an allegedly late application. Id. at 2122 (emphasis in original).
Unfortunately, on March 7, 2017, Dr. Jones received
a letter from VSU’s Provost, Dr. Palm, telling him that
his tenure application had been denied as untimely. Id.
at 22. According to Dr. Palm’s letter, Dr. Jones should
have applied in either the 2013-2014 or 2014-2015
academic years. Id. It said nothing, however, about the
fact that VSU did not notify Dr. Jones of such eligibility
in either of those years and, instead, for the first time,
made such notification in the Spring of 2016. Id.
Dr. Jones timely appealed the decision set forth in
Dr. Palm’s letter, but his appeal was denied by Memo
dated May 22, 2017. Id. The memo largely echoed Dr.
Palm’s initial letter. Id. It also conspicuously omitted
any reference to the timetable and notice requirements
applicable to VSU’s eligibility actions. Id.
Soon thereafter, Dr. Abdullah, the President of VSU,
affirmed the May 22, 2017 decision. Id. As with all other
communications, Dr. Abdullah made no mention of
VSU’s timetable and notice requirements for tenure
eligibility. Id.
Also, at no point during Dr. Jones’ entire period of
employment with VSU did the University provide Dr.
Jones with a “third year review,” as required under the
terms of VSU’s Promotion and Tenure Review Process.
Id. See VSU Faculty Handbook, Section 2.6. According
to the Handbook, “[t]he particular focus of this [third
year] review is the faculty member’s progress toward

9
achieving tenure, and therefore must specifically
address the criteria for tenure.” (emphasis added). Id.
In other words, at no point did VSU ever identify for
Dr. Jones when his third year of eligibility was so that
he could know when his eligibility “clock” would finally
expire. Id. at 23. To the contrary, the absence of a thirdyear review to discuss Dr. Jones’ “progress toward
tenure” left him unaware as to what the University
believed to be the proper timetable for his tenure
eligibility. Id.
After believing he had no other options left, Dr. Jones
sent a final appeal letter to Dr. Abdullah in October
2017 regarding the tenure eligibility decision. Id. He
took this action because the VSU Faculty Handbook
provides one last appeal to the President if all other
avenues of appeal have been unsuccessful. Id. To date,
however, Dr. Jones has received no response to his
letter. Id.
As a result of Dr. Abdullah’s and VSU’s decisions
about Dr. Jones’ tenure eligibility, Dr. Jones was given
a terminal contract for the 2017-2018 academic year and
his employment was terminated effective September 1,
2018. Id.
Dr. Jones was shocked that his application for tenure
was denied without a substantive review of his
application. Id. Indeed, based on VSU’s recent practices
in awarding tenure, Dr. Jones had a reasonable
expectation to the effect that if his application had been
reviewed on the merits, he would have been granted
tenure. Specifically, in 2009, VSU granted tenure to at
least nine (9) professors; in 2010; VSU granted tenure to

10
at least three (3) professors; in 2011, VSU granted
tenure to at least three (3) professors; in 2012, VSU
granted tenure to at least four (4) professors; in 2013,
VSU granted tenure to at least four (4) professors; in
2014, VSU granted tenure to at least one (1) professor;
and in 2016, VSU granted tenure to at least one (1)
professor. Id. at 23-24. In total, then, between 2009 and
2016 (the year before Dr. Jones applied for tenure), VSU
has awarded tenure to at least twenty-five professors
(25) at the University. Id. at 24.
Out of the at least 25 professors who have been
awarded tenure between 2009 and 2016, Dr. Jones
compares more favorably – from an objective standpoint
– to at least two. Id. As such, based on VSU’s past
practices with regard to awarding tenure, it was more
likely than not that Dr. Jones would have been awarded
tenure if his application had been allowed to proceed on
the merits. Id. Indeed, Dr. Jones is not aware of any
VSU professors (i) who have been recommended for
tenure by both their Department and their School and
(iii) whose applications have been considered on the
merits who have not been granted tenure at the
University. Id.
B. The Underlying Litigation.
Following his denial of tenure – and subsequent
termination – by VSU, Dr. Jones filed a Section 1983
lawsuit in the Eastern District of Virginia against both
VSU and Dr. Abdullah. JA2; 4-12. In his Complaint, Dr.
Jones raised one claim – a procedural due process claim
– and as part of that claim, he specifically alleged that
“[a]s a tenure-eligible professor at VSU, [he] had a
minimal property interest in applying for tenure and

11
had a due process right under the U.S. Constitution to
receive a fair review tenure as to his application for
tenure.” Id. at 10, ¶ 33.
Respondents moved to dismiss, raising various
arguments in support. Id. at 2, 13-14. The District Court
did not address that motion, however, because Dr. Jones
filed his FAC, which included additional factual
allegations. Id. at 2. As before, however, Dr. Jones
expressly alleged in his due process claim that “[a]s a
tenure-eligible professor at VSU, [he] had a minimal
property interest in applying for tenure and had a due
process right under the U.S. Constitution to receive a
fair review tenure as to his application for tenure.” Id.
at 24.
Respondents again moved to dismiss. Id. at 28-29.
This time, the District Court did address the motion and
granted it. Id. at 58.
The basis for the District Court’s dismissal was its
belief that Dr. Jones did not “allege a deprivation of a
protected property interest.” Id. at 57. Relying on an
unpublished decision from the Fourth Circuit (Davis v.
Rao, 583 F. App’x 113 (4th Cir. Sept. 5, 2014) (per
curiam), a district court decision, and dicta from the
Fourth Circuit’s decision in Siu v. Johnson, 748 F.2d 238
(4th Cir. 1984), the District Court explained that:
• “Jones does not have a protected property interest
in the tenure review process;”
• “[t]enure review procedures, without more, do not
give rise to a protected property interest;”

12
• “VSU’s alleged failure to follow its tenure review
process does not give rise to a cognizable due
process claim;” and
• “Jones does not plead facts showing that a
common law right to tenure exists”
JA56-57 (internal quotations and citations omitted).
Believing that the District Court’s ruling was wrong,
Dr. Jones appealed to the Fourth Circuit. Id at 69-60.
The Court of Appeals, however, summarily affirmed the
District Court’s decision. In a two-page unpublished per
curiam opinion, the Fourth Circuit affirmed “for the
reasons stated by the district court.” App at 2.
This Petition followed.

13
REASONS FOR GRANTING THE WRIT
I. This Case Presents An Important Question Of
Federal Constitutional Law On Which There Is
A Conflict Between Circuit Courts.
This case presents an important question of
Constitutional law: does a non-tenured, but tenureeligible, professor at a public university have a minimal
property interest in a fair tenure review process. The
Sixth Circuit has expressly answered this question
“yes.” Purisch v. Tennessee Tech. Univ., 76 F.3d 1414,
1423 (6th Cir. 1996). But, in affirming the District
Court’s dismissal decision on this issue, the Fourth
Circuit said “no.” A clear conflict between circuit courts
exists on this important issue, and guidance from this
Court is critical.
The District Court’s decision below is legally
incompatible with this Court’s decision in Perry v.
Sindermann, 408 U.S. 593 (1972). There, in remanding
the plaintiff’s claim back to the lower court, this Court
held that he had “alleged the existence of rules and
understandings, promulgated and fostered by state
officials, that may justify his legitimate claim of
entitlement to continued employment” sufficient to
defeat summary judgment. Perry, 408 U.S. at 602. These
rules and understandings included guidelines from the
Texas College and University System and allegations
about a “de facto tenure program,” Id. at 600.
A. Purisch v. Tennessee Technological Univ.
Twenty-four years after Perry, the Sixth Circuit, in
Purisch v. Tennessee Technological Univ., 76 F.3d 1414,
1423 (6th Cir. 1996), relied on these very same

14
sentiments and expressly recognized that a Tennessee
Tech professor eligible for tenure consideration had
“some minimal property interest in a fair tenure review
process” for purposes of his procedural due process claim
under Section 1983. It held that the university had
“clearly promulgated rules and fostered mutual
understandings regarding entitlement to a merit-based
tenure review,” and thus it “may not deny a candidate
tenure without some degree of impartial inquiry into his
or her qualifications.” Id.
Purisch has been widely followed throughout the
Sixth Circuit. See, e.g., Weeks v. Kentucky State Univ.,
468 Fed. Appx. 515, 521 (6th Cir. 2012) (holding that
nontenured professor at Kentucky State University had
minimal property interest in a fair tenure review
process); Ragozzine v. Youngstown State Univ., 2 F.
Supp.3d 1051, 1070 (N.D. Ohio 2014) (applying Purisch
and Weeks to tenure-eligible educator at Youngstown
State University in Youngstown, Ohio); Saha v. Ohio
State Univ., 2007 WL 9760443 at *8 (S.D. Ohio Feb. 1,
2007) (applying Purisch to tenure eligible educator at
Ohio State University). Cf. Wysocki v. UNLV, 2008 WL
11452341 at*2 (D. Nev. Sept. 25, 2008) (denying Rule
12(b)(6) where record was incomplete as to whether the
tenure applicant had a minimum due process property
right for purposes of his procedural due process claim)
(applying pre-Twombly standard of review).5

5

A similar analysis has been followed by West Virginia. See, e.g.,
State ex. Rel. McLendon v. Morton, 249 S.E.2d 919, 925-27 (W.Va.
1978) (holding that professor had right to minimal due process in
tenure review).

15
Purisch’s analysis also makes sense. It is well
established that once a public university professor
reaches the top of the tenure mountain (i.e., he obtains
tenure), he has a property interest worthy of
constitutional protections. But in seeking to actually
ascend that mountain, many courts, including the
District Court below, say he does not. This is illogical.
Why should the effort to attain tenure receive less – or
even no – constitutional protection than the effort to
keep it? The answer is it should not. At the very least,
it should receive minimal constitutional protection and
should be reviewed to ensure an impartial process.
The failure of both the District Court and the Fourth
Circuit to follow Purisch was outcome determinative.
Indeed, if the District Court and the Fourth Circuit had
followed Purisch6, they would have had no choice but to
conclude that Dr. Jones, on the facts alleged in his
amended complaint, did possess a minimal property
interest in a fair tenure review process at VSU. As is
plausibly clear from the documents that Respondents
submitted to the District Court (at JA42-46; pages of the
VSU Faculty Handbook), VSU has established policies,
regulations, and mutual understandings that create the
“entitlement to a merit-based tenure review.” Purisch,
76 F.2d at 1423. Thus, at the motion to dismiss stage of
the case, Dr. Jones stated facts that plausibly showed his
minimal property interest. Since this was the only basis
upon which the District Court dismissed his Section

6

Indeed, even though Dr. Jones directly raised the holding of
Purisch in his opposition to Respondents’ motion to dismiss, the
District Court conspicuously failed to mention it, much less
address it, in its dismissal opinion. See, e.g., JA48-57.

16
1983 claim, Dr. Jones should have been permitted to
proceed forward.
B. Conflicting Fourth Circuit Jurisprudence.
In direct conflict with Purisch, the Fourth Circuit’s
jurisprudence has clearly signaled over the years that
there is no such minimal property interest for nontenured, but tenure-eligible, public professors. See, e.g.,
Davis v. Rao, 583 F. App’x 113 (4th Cir. Sept. 5, 2014);
Siu v. Johnson, 748 F.2d 238 (4th Cir. 1984); Kilcoyne v.
Morgan, 664 F.2d 940 (4th Cir. 1981). None of these
cases, however, align with Perry. Moreover, no case in
the Fourth Circuit – district or appellate – has ever
examined the property interest question of non-tenured
public professors in light of the analysis provided by
Purisch. Nor has any case even cited or discussed
Purisch. In other words, neither the Court or Appeals
nor any of its lower courts have ever tried to address the
arguments that Dr. Jones raised.
II. This Case Is An Excellent Vehicle To Resolve
The Question Presented.
This case presents an excellent vehicle through
which to resolve the circuit conflict between the Fourth
and the Sixth Circuits. It raises a purely legal issue,
and it has squarely placed the property interest issue
before both the District Court and the Fourth Circuit.

17
CONCLUSION
In conclusion, for all the reasons stated herein, the
petition should be granted, the Fourth Circuit’s decision
affirming the dismissal of Dr. Jones’ amended complaint
should be vacated, and the case should be remanded to
allow Dr. Jones to proceed in the District Court.
Respectfully submitted,
RICHARD F. HAWKINS, III
Counsel of Record
THE HAWKINS LAW FIRM, PC
2222 Monument Ave.
Richmond, VA 23220
(804) 308-3040 (telephone)
(804) 308-3132 (fax)
rhawkins@thehawkinslawfirm.net
Counsel for Petitioner

